Peace Corps
Office of Inspector General




            Map of Indonesia




            Flag of Indonesia




Final Program Evaluation Report:
      Peace Corps/Indonesia
                                September 2012
                                EXECUTIVE SUMMARY
Peace Corps Volunteers first served in Indonesia from 1963 until the program was closed in
1965. After a 45 year absence, the program re-opened in March 2010, and 18 Volunteers swore
in the following June. There is currently one project sector in Indonesia, English teaching and
teacher training. At the onset of this evaluation, 39 Volunteers were serving in Indonesia, and an
additional 46 trainees were participating in pre-service training (PST).

Due to interest from the Department of State and the U.S. Presidential administration,
PC/Indonesia (hereafter, “the post”) opened with an accelerated reentry timeline that left little
time to prepare for the arrival of trainees. Trainees arrived only 68 days after the first permanent
staff member started working in Indonesia. This was an insufficient amount of time to establish
operations prior to the arrival of trainees, which negatively impacted Volunteer training, staff
hiring, and host country partner relations. The post overcame these challenges, but the decisions
made regarding the reentry timeline raised questions about the adequacy and commitment of the
agency in upholding its new country entry processes.

Despite having insufficient time to open the post, the staff has done an impressive job developing
its systems and processes. The post was staffed with experienced, high-performing U.S. direct
hire (USDH) managers who implemented many of the agency’s best practices in post operations
and Volunteer support. This has resulted in the development of sites where most Volunteers were
able to be productive, develop counterpart relationships, and receive effective support from staff.
The post’s staff also developed collaborative relationships with Indonesian project partners who
are engaged in the Peace Corps’ work and have shown an interest in encouraging sustainability
of Volunteer projects. The post’s USDH leadership has also fostered an open, collaborative work
environment and has demonstrated a commitment to employee development.

The evaluation did uncover some areas for improvement. In an effort to ensure that important
Volunteer support activities were performed, the post changed its programming structure and
created two regional manager (RM) positions to work alongside the existing program manager
(PM) and program assistant (PA). Staff reported that there was a tendency for these staff
members to perform similar duties, and there was not adequate differentiation that aligned with
each person’s skills, experience, and salary.

Although the staff made significant improvements to technical training since re-opening the
program, Volunteers stated that unorganized sessions negatively impacted the effectiveness of
PST technical training. Many Volunteers were also dissatisfied with secondary local language
training. Unlike training in Bahasa Indonesia, the country’s primary language, secondary
language training was generally considered to be ineffective, and some interviewed Volunteers
questioned its usefulness.

In general, the post has a comprehensive safety and security system, but there are a few
weaknesses that need to be addressed. The post has not tested the emergency action plan (EAP)
using alternate communications as required by Peace Corps policy. The post has not developed a




Preliminary Program Evaluation Report: Peace Corps/Indonesia                                           i
process to distribute critical EAP updates to staff and Volunteers. In addition, 42 percent of
interviewed Volunteers could not correctly identify the location of their consolidation point.

Our report contains 12 recommendations, which, if implemented, should strengthen post
operations and correct the deficiencies detailed in the accompanying report.




Preliminary Program Evaluation Report: Peace Corps/Indonesia                                     ii
                                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY .................................................................................................................... i

HOST COUNTRY BACKGROUND ......................................................................................................1

PEACE CORPS PROGRAM BACKGROUND........................................................................................1

EVALUATION RESULTS ....................................................................................................................2
          MANAGEMENT CONTROLS ............................................................................................................................... 2

          VOLUNTEER SUPPORT ......................................................................................................................................6

          PROGRAMMING .............................................................................................................................................. 12

          TRAINING ....................................................................................................................................................... 14


OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................................................20

INTERVIEWS CONDUCTED .............................................................................................................21

LIST OF RECOMMENDATIONS .......................................................................................................24

APPENDIX A: LIST OF ACRONYMS ................................................................................................26

APPENDIX B: AGENCY’S RESPONSE TO THE PRELIMINARY REPORT ...........................................27

APPENDIX C: OIG COMMENTS.....................................................................................................35

APPENDIX D: PROGRAM EVALUATION COMPLETION AND OIG CONTACT ...............................36
                           HOST COUNTRY BACKGROUND
Indonesia is an archipelago of over 6,000 inhabited islands located in southeastern Asia between
the Indian and Pacific Oceans. The country borders Papua New Guinea, East Timor, and
Malaysia, and other neighboring countries include Singapore, the Philippines, and Australia.
Indonesia declared its independence on August 17, 1945 following centuries of rule by the Dutch
and British and a period of Japanese occupation during World War II. The country has
experienced several leadership changes and crises since that time, some of which led to civil
unrest. The country has undergone democratization in recent decades and held its first direct
presidential election in 2004.

Indonesia has a population of over 240 million people, surpassed only by China, India, and the
United States. It is the world's third most populous democracy, the world's largest archipelagic
state, and home to the world's largest Muslim population. Its population includes a mix of ethnic
groups, with people of Javanese background accounting for more than 40% of the population.
Bahasa Indonesia is the official language, although there are more than 700 languages and
dialects spoken in the archipelago.

The country faces numerous natural hazards including occasional floods, severe droughts,
tsunamis, earthquakes, volcanoes, and forest fires. Indonesia contains more volcanoes than any
country in the world, and the country has experienced several recent disasters due to seismic
activity. Over 130,000 people in Northern Sumatra died in a 2004 earthquake and tsunami. In
2006, a deadly earthquake killed over 5,500 people in the Javanese city of Yogyakarta.

Although Indonesia was greatly affected by the Asian financial crisis in the late 1990s, the
country’s economy has been recovering, and Indonesia is considered a major emerging market.
Despite this prosperity, the development has not been spread evenly over the country. The island
of Java, which has 60 percent of the country's residents, has reportedly benefited from
development resources more than other areas of the country. Indonesia is listed as “medium
human development” and ranks 124th out of 187 countries in the 2011 United Nations Human
Development Report.1


                   PEACE CORPS PROGRAM BACKGROUND
The Peace Corps first opened its program in Indonesia in 1963 with 46 Volunteers working in
physical education. The program was closed in 1965 due to political unrest and safety and
security concerns. After a 45 year absence, 18 Volunteers returned to Indonesia in March 2010
as part of an English teaching and teacher training project. In this capacity, Volunteers work at
high schools in East Java where they co-teach 10th and/or 11th grade English with Indonesian


1
 The United Nations Human Development Report publishes an annual Human Development Index (HDI). The HDI
provides a composite measure of three basic dimensions of human development: health, education and income.
Countries receive a ranking that ranges from “very high human development” to “low human development” based
on related data.


Final Program Evaluation Report: Peace Corps/Indonesia                                                    1
counterparts. Volunteers also implement extracurricular opportunities for students to practice
English and life skills.

At the onset of this evaluation 39 Volunteers were serving in Indonesia, including Volunteers
from the first group to serve since the post re-opened in 2010 (the ID4 group) and others who
swore in one year later in June 2011 (the ID5 group). There were also 46 trainees who arrived in
April 2012 (the ID6 group) and were participating in PST.

The post’s fiscal year 2012 budget was $1.8 million.2 At the time of the evaluation the post had
23 permanent staff positions.


                                     EVALUATION RESULTS
MANAGEMENT CONTROLS

One of the key objectives of our country program evaluation is to assess the extent to which the
post’s resources and agency support are effectively aligned with the post's mission and agency
priorities. To address these questions, we assess a number of factors, including staffing; staff
development; office work environment; collecting and reporting performance data; and the
post’s strategic planning and budgeting.

The evaluation found a generally well-managed post despite an accelerated reentry timeline that
left little time to prepare for the arrival of trainees (this will be addressed later in this section).
Despite having insufficient time to open the post, the staff has done a remarkable job developing
its systems and processes. This is due in large part to the staffing and support provided to the
post. The post was staffed with experienced, high-performing USDHs who helped guide the post
and put in place agency best practices. The local staff also demonstrated a high level of
professionalism and commitment to Volunteers and the Peace Corps mission. Headquarters
provided the financial support and temporary duty (TDY) staffing needed to get the post
operating before permanent staff members could be hired. Furthermore, the post was provided
with numerous assessment opportunities to help identify and correct weaknesses, including visits
from the regional Peace Corps safety and security officer (PCSSO), the regional medical officer
(RMO), and an internal management consultation team. The post clearly benefited from this
support and the resources it was provided to prepare for reentry. In reviewing the post’s work
environment, Volunteer performance reporting, the post’s relationship with the U.S. Embassy,
and the post’s relationship with headquarters, the Office of Inspector General (OIG) found no
significant areas of concern that would necessitate action by the post.

Office work environment. Staff members reported that morale is high, and they are proud of the
communication and collaboration that occurs across the units. They are also appreciative of the
supervision and guidance provided by the USDH employees: the country director (CD), director
of programming and training (DPT), and director of management and operations (DMO). In

2
 This amount does not include the salaries, benefits, and related cost of U.S Direct Hires assigned to post and other
costs the agency has determined should be centrally-budgeted.


Final Program Evaluation Report: Peace Corps/Indonesia                                                                  2
particular, staff at the post and headquarters praised the post leadership’s commitment to
employee development and high performance standards.

Performance data. Volunteers are submitting their Volunteer reporting forms (VRFs), and most
of the interviewed Volunteers reported that the information they provide is reliable. The staff
raised some concerns that the agency’s plans to change the reporting timeframes will negatively
impact the post. Currently, the post’s reporting timeframes align with the Indonesian school year.
The staff is concerned that the planned changes will negatively impact Volunteers’ ability to use
the tool and provide accurate data.

Relationship with the embassy and consulate. The post has effective working relationships
with the U.S. Embassy in Jakarta and the Consulate in Surabaya. Post staff coordinate with
embassy and consular staff on safety and security-related items as needed.

Headquarters support. In general, the staff appreciated the support provided by headquarters’
offices, although they identified some areas where improvements are needed. For example, the
post operates 11 hours ahead of the headquarters’ time zone and would benefit from 24-hour IT
support. Although the Office of the Chief Information Officer has not typically provided 24-hour
IT support to accommodate posts in different time zones, the agency announced a pilot program
to increase support by placing IT specialists in the Europe, Mediterranean & Asia (EMA) and
Africa regions. This was announced in May 2012 but had not been implemented at the time of
the evaluation.

Post staff also reported that they are appreciative of the structure and resources provided by the
agency’s Focus In/Train Up (FITU) initiative but have faced some difficulties implementing the
program.3 For example, the project plan review process had not been clearly established and
communicated so post staff were unsure how to finalize their project plan. The agency was also
continuing to make updates to the Teaching English as a Foreign Language (TEFL) sector and
global indicators while the post was trying to finalize its project plan.4 This created shifting
expectations that post staff had a difficult time understanding and meeting. Despite the
difficulties and uncertainties, post staff recognized the value of the agency’s efforts and were
looking forward to additional FITU resources and materials.

Although the post’s management controls were generally effective, the evaluation did uncover a
few areas that require management attention, particularly related to the post’s reentry timeline
and the distribution of work among programming staff. The remainder of this section provides
more information about these topics.

The agency did not allow sufficient time for post reentry.

The agency’s New Country Entry Guide outlines a timeline for opening a post that requires at
least six months to complete. Despite this, trainees arrived only three months after the agency

3
  The agency’s Focus In/Train Up strategy seeks to focus on a limited number of highly effective projects while
concurrently undertaking new strategic partnerships and initiatives.
4
  As part of its Focus In/Train Up activities, the agency is developing standardized indicators that the posts will use
to monitor and evaluate projects.


Final Program Evaluation Report: Peace Corps/Indonesia                                                                    3
signed a memorandum of understanding with the government of Indonesia and merely 68 days
after the first permanent staff member arrived in Indonesia. Although the Peace Corps supported
the reentry, staff reported that the timeline was not driven by the needs of the agency or the
post’s Indonesian partners. Instead, the timing was influenced by the Department of State and the
U.S. Presidential administration who reportedly wanted Volunteers present for a planned
presidential visit to Indonesia in March 2010. This left the agency with a shortened amount of
time to re-open the program and complete a large number of important reentry activities,
including developing PST; finding safe, suitable Volunteer sites; hiring and training staff;
locating an office; and setting up all of the post’s financial and administrative systems.

The quick reentry timeline had a negative impact on training, hiring, and partner relations. Staff
and ID4 Volunteers reported that PST was unorganized and inadequate, particularly in the areas
of language and technical training. The post also had little time to hire staff, resulting in poor
hiring decisions and staffing gaps. For example, the DPT did not begin working in Indonesia
until PST was already underway. Even after staff members were hired, there was insufficient
time to properly train and orient them. In addition, the reentry timeline created friction with the
post’s key project partners, as the post did not have time to follow the Indonesian government’s
standard processes for developing implementing arrangements or securing visas and work
permits.

The accelerated reentry timeline also impacted functions beyond those at the post in Indonesia,
particularly related to Volunteer placement and reentry costs. The office of Volunteer
recruitment and selection (VRS) typically requires at least a year to select individuals for a post’s
training class. VRS had less than four months to select applicants for the Indonesia reentry,
causing them to take high quality Volunteers who had been identified for other posts and shift
them to Indonesia. VRS staff members reported that such actions can have ramifications for the
entire recruitment and placement process and can jeopardize their ability to meet other posts'
trainee requests. In addition, the Indonesia reentry required numerous staff members to be sent to
the post on TDY. Their support was critical in helping the post set up operations but was costly
to the agency.

Fortunately, the post overcame the challenges that resulted from the accelerated reentry timeline,
and most staff members viewed the reentry as a success. Despite the challenges of the
accelerated timeline, staff reported that President Obama’s visible support of the program helped
lend it credibility and was one positive element of the reentry. However, the decisions made
regarding the reentry timeline raised questions about the agency’s commitment to adhering to its
new country entry processes.

When new country entries and reentries are done without adequate time or resources, the agency
exposes Volunteers to numerous risks. Staff members need sufficient time to set up processes
that will serve as the foundation of the program and ensure that Volunteers’ health and safety is
not jeopardized because of hasty site development and insufficient training. The Indonesia
reentry was not the only time the agency has opened a program under an accelerated timeline.
For example, we reported in Peace Corps OIG Report 11-07-E, Liberia Final Program
Evaluation Report, that the post was opened earlier than planned and was not provided adequate
financial and physical resources. The accompanying recommendation remains open.



Final Program Evaluation Report: Peace Corps/Indonesia                                                4
               We recommend:

                   1. That the associate director of Global Operations give
                      emphasis to Peace Corps regulations and establish a set
                      of standards and realistic timelines for future new
                      country entries and reentries. Timelines should be
                      based upon the particular condition, cultural norms,
                      local procedures and unique features of the host
                      country and the new Peace Corps program and ensure
                      that important activities that impact Volunteer health
                      and safety are completed before trainees arrive in
                      country.


Programming staff duties were not well distributed.

The Peace Corps publication Characteristics and Strategies of a High Performing Post
emphasizes the need for appropriate distribution of duties among programming staff members. It
acknowledges that each staff member has different skills and interests but instructs posts to keep
the work appropriately balanced to avoid an overworked, unhappy staff, which can negatively
impact Volunteer support.

Post staff raised concerns that the programming positions are not well differentiated and there is
too much similarity in staff members' job activities, even though they hold different positions.
Some members of the programming team have struggled to perform all of the duties outlined in
their statement of work (SOW). To ensure that these duties were not overlooked, the post
changed its programming structure and created two RM positions who provide support to groups
of Volunteers. The post also employs a PM and a PA.

It is reasonable that there be some overlap in the RM, PM, and PA positions with each position
contributing to key programming activities such as site development and Volunteer support.
However, there should also be differentiation among the roles to ensure that staff members'
responsibilities are aligned with their skills, experience, and salary. A review of staffing data and
SOWs confirmed differences in salaries and expected duties among the positions. However, the
RM position is new, and the SOWs are not being implemented as written. Position differences
are not yet understood, and staff reported that there is a tendency for everyone to perform similar
duties. One person commented, “For the past three to four months all four of us are doing the
same job but getting different salaries.” If the situation is not addressed it could lead to
frustration and lower morale.




Final Program Evaluation Report: Peace Corps/Indonesia                                              5
                 We recommend:

                     2. That the country director review and clarify the duties
                        of the program manager, regional managers, and
                        program assistant and adjust statements of work, titles,
                        and pay grades, if needed.


VOLUNTEER SUPPORT

Our country program evaluation attempts to answer the question, “Has post provided adequate
support and oversight to Volunteers?” To determine this, we assessed numerous factors,
including staff-Volunteer communications; project and status report feedback; medical support;
safety and security support including staff visits to Volunteer work sites, the EAP, and the
handling of crime incidents; and the adequacy of the Volunteer settling-in and living allowances.

In general, we determined through our evaluation that post has developed a solid Volunteer
support structure. In reviewing site visits, staff-Volunteer communications, Volunteer
performance report feedback, most elements of emergency preparation, housing checks, site
locator forms (SLFs), and Volunteer allowances, OIG found no significant areas of concern that
would necessitate action by the post.

Site visits. The staff is conducting thorough, comprehensive site visits that typically include in-
classroom observation and conversations with Volunteers, host families, and school
representatives. Eighty-nine percent (17 of 19) of interviewed Volunteers stated that they had
received an adequate number of site visits, and they rated the effectiveness of the visits as
average or better (3.5 average).5 After completing a site visit, staff members document what
occurred and send a copy to the Volunteer(s) visited.

Staff-Volunteer communications. The evaluation also determined that there is good, open
communication between Volunteers and staff. Staff regularly seeks Volunteer feedback and is
generally aware of Volunteer needs and concerns. Some of the feedback mechanisms used to
gather Volunteer input include training evaluations, site visit feedback forms, and the volunteer
advisory committee. Furthermore, the post uses a variety of methods to reach Volunteers and
communicate important information, including text messages, emails, and phone calls. In
general, staff seemed to be aware of Volunteers’ preferred communication methods and access
challenges, although Volunteers reinforced that staff should send texts to alert them when an
important email has been sent that requires their attention.

Volunteer performance report feedback. Staff is providing regular feedback to Volunteers’
periodic feedback reports, and all 19 Volunteers in our sample had received feedback on their
latest report. The post has a cross-functional Volunteer support team that comprises staff
members from the programming and training, safety and security, medical, and administrative
5
  Volunteer interviews were conducted using a standardized interview questionnaire, and Volunteers were asked to
rate many items on a five-point scale (1 = not effective, 3 = average, 5 = very effective).


Final Program Evaluation Report: Peace Corps/Indonesia                                                             6
units. Staff members from the Volunteer support team paired up to review and respond to
Volunteer performance reports. Overall, staff’s VRF feedback was considered helpful with 74
percent (14 of 19) of interviewed Volunteers rating the feedback quality as average or better (3.2
average). Many Volunteers appreciated the positive, uplifting tone of the feedback but stated that
the feedback would be more helpful if there was more advice to help Volunteers with challenges
raised in their reports.

Emergency preparedness. Although there are some elements of emergency preparedness that
require attention and will be discussed later in this section, the post demonstrated that it has
taken several important steps to prepare for emergencies. Staff members, including the current
and former safety and security coordinators (SSCs), have developed relationships with safety and
security organizations, including security personnel at the U.S. Embassy and Consulate in
Surabaya, and have access to safety and security-related data. Safety and security criteria are
incorporated into site development to ensure that Volunteers are not placed in homes that would
expose them to an unnecessary level of risk. The post has developed and continues to refine a
medical evacuation plan that follows the agency’s recommended format.

Housing checks. Volunteers’ houses were generally in compliance with items on the post’s
thorough housing checklist. The post’s housing criteria include elements related to the condition
of the house, the residents, the surrounding neighborhood, and items that should be available to
Volunteers, such as a bed with a new mattress and a wardrobe for personal items. A review of
Volunteers’ houses and the post’s housing check records verified that housing checks were
usually completed and documented accurately.

Site Locator Forms. SLFs contain information about the Volunteer’s site, including
communication and logistical information that could be needed in an emergency. Most of the 19
SLFs reviewed during the evaluation were complete and included contact information of local
police and medical facilities, directions to consolidation points, Volunteer contact information,
and directions to Volunteer sites. However, we did find some SLFs that were missing
information that might be needed in a crisis, including the Volunteer’s phone number. There
were also five SLFs in the sample that did not include the Volunteer’s consolidation point.

Volunteer allowances. Most interviewed Volunteers were satisfied with the adequacy and
timeliness of reimbursements and their settling-in and living allowances. The living allowance
amount decreased in March 2012 in response to results of the annual living allowance survey.
Although several Volunteers stated that the new, lower living allowance required them to adjust
their spending, most reported that they were still able to purchase necessities and pay their host
family for living expenses.

The strength of the post’s Volunteer support systems is reflected in the aforementioned results
as well as Volunteers’ ratings of staff support, which are as follows:




Final Program Evaluation Report: Peace Corps/Indonesia                                               7
                 Table 1: Volunteer Perception of Effectiveness of Staff Support6
                        Support Area                  Percent of            Average Rating
                                                   Volunteers Rating         for Support
                                                  “Average Support”
                                                       or Better
                  Leadership                              94%                       4.2
                  Programming & Training                  90%                       3.9
                  Safety and Security                    100%                       4.4
                  Medical                                100%                       3.4
                  Administrative                          94%                       3.9
                 Source: OIG interviews.

Despite the strong support provided by staff, the post has experienced a high Volunteer
resignation rate. As of Q2 2012, the post’s resignation rate was 18.4 percent, compared to 5.7
percent globally. All of the resignations were ID5 Volunteers. Data indicates that these
Volunteers had a variety of reasons for leaving, and there was not one clear, common cause for
the resignations. But interviewed staff and Volunteers who were serving at the time of the
evaluation suggested that some ID5 Volunteers might have struggled to create effective support
systems, which contributed to the high resignation rate. In an effort to increase the support
available to Volunteers, the post has started a peer support network.

While the post generally provides strong Volunteer support, the evaluation did uncover a few
areas that require management attention, particularly related to medical unit staffing, sexual
assault training for staff, consolidation points, the distribution of EAP updates, and EAP testing.
The remainder of this section provides more information about these topics.

The agency needs to be proactive in securing additional post medical unit staff.

According to Peace Corps’ Technical Guideline (TG) 200: Overseas Health Units, section 11.1,
the Peace Corps does not have fixed staffing ratios of PCMOs to Volunteers but uses the broad
guidance of 80 Volunteers per PCMO. At the time of the evaluation, the post had 39 Volunteers
and one PCMO, which was well within the agency’s guidelines. However, the post is entering a
period of planned growth that will impact its PCMO-to-Volunteer ratio. By June 2012 the post
was projected to have 68 Volunteers.7 By June 2013 the post is planning to have over 100
Volunteers.8 At that point, the post will exceed the recommended ratio and will need an
additional PCMO.




6
  Leadership was derived from the CD score. Programming & Training was derived by averaging the scores of the
DPT, PM, PA, RMs, and training manager. Safety and Security was derived by averaging the scores of the current
and previous SSCs. Medical was derived from the PCMO score. Administrative was derived from the DMO’s score.
7
  The post projected that there would be 22 ID5 Volunteers and 46 ID6 Volunteers in June 2012, assuming no early
terminations.
8
  The post projected that there would be 46 ID6 Volunteers and 60 ID7 Volunteers in June 2013, assuming no early
terminations.


Final Program Evaluation Report: Peace Corps/Indonesia                                                             8
                           Figure 1: Volunteer Growth Projections
                    120

                    100

                     80

                     60

                     40

                     20

                      0
                             April 2012              June 2012             June 2013

                           Projected Volunteer Numbers       Maximum Volunteers per PCMO



TG 200 explains that a number of factors can alter the recommended PCMO-Volunteer ratio,
and the post would benefit from hiring a second PCMO before June 2013. As a new post, staff
members are still learning their roles, and medical unit staff members reported that it takes them
longer to perform their duties while they try to become familiar with Peace Corps policies and
procedures. Staff reported difficulty managing the workload with only 39 Volunteers, and they
anticipated that the challenges will grow as they increase Volunteer numbers and expand
geographically. Furthermore, the medical assistant, the only other staff member in the medical
unit, announced her resignation in May 2012, leaving the medical unit with one permanent full-
time employee, the PCMO. Staff reported that it could take at least six months to recruit another
PCMO, leaving the medical unit short-staffed. The agency planned to provide a TDY staff
person to assist the post until they could hire additional medical unit staff members. As of June
2012, the post had received the region’s approval to begin recruiting a medical secretary and a
second PCMO. The post should begin recruiting immediately to allow sufficient time to hire and
train a new PCMO and avoid a decline in the quality of medical support.


               We recommend:

                   3. That the country director hire a second Peace Corps
                      medical officer.


Temporary staff members did not receive training regarding the agency’s sexual assault
policy.

The agency’s Guidelines for Responding to Rape and Sexual Assault instructs posts to provide
training to “all staff members who may be involved in responding to an incident.” The
Guidelines also instruct posts to “ensure that the Volunteer’s privacy is respected as much as
possible” and “remind staff that confidentiality must be maintained and limited to those
individuals who have a specific need-to-know as part of performing their duties.”




Final Program Evaluation Report: Peace Corps/Indonesia                                           9
The post experienced a sexual assault incident during our fieldwork that required the affected
trainee to be removed from the host family situation. The staff member who initially responded
acted promptly but provided more information than was needed for other staff members to
perform their duties. It was reported that the trainee was unhappy with the number of people who
were aware of the incident.

Although the post provided training for all permanent staff members, it did not train the
temporary staff members who assisted with PST during part of the year. These PST staff
members could have benefitted from training that covered the agency’s policy on handling
sensitive or privacy-protected information. Even though The Kate Puzey Peace Corps Volunteer
Protection Act of 2011 (P.L. 112-57) states that all staff members outside the United States shall
be trained on the agency’s sexual assault policy, the agency’s internal guidelines are unclear
about whether temporary staff must receive the training. This could leave staff unprepared to
adequately respond to sexual assault incidents.


               We recommend:

                   4. That the associate director for safety and security
                      update the agency’s Guidelines for Responding to Rape
                      and Sexual Assault to reflect the staff training
                      requirements in the Kate Puzey Peace Corps Volunteer
                      Protection Act of 2011.

                   5. That the country director ensure that all post staff,
                      including temporary, seasonal staff members, receive
                      sexual assault response training.


Volunteers were unable to identify their consolidation points.

According to the agency’s safety and security policy contained in the Peace Corps Manual
section (MS) 270.8.2, “The CD will assure that post staff and [Volunteers/trainees] are trained in
the EAP and in individual EAP responsibilities.” As part of PC/Indonesia’s EAP, Volunteers are
assigned to a consolidation point where they would report in the event of an emergency.
Although Volunteers received a copy of the EAP and participated in EAP training during PST,
42 percent (8 of 19) of interviewed Volunteers could not correctly identify the location of their
consolidation point. This could pose a risk to Volunteers’ safety should consolidation be
necessary during an emergency.


               We recommend:

                   6. That the country director ensure that all Volunteers are
                      familiar with their consolidation points.




Final Program Evaluation Report: Peace Corps/Indonesia                                          10
Volunteers and consulate staff had outdated EAPs.

According to the agency’s Standard Operating Procedure: EAP Analysis and Revision, “The
SSC will be responsible for revising the EAP and making the appropriate notifications to staff,
Volunteers, Regional Security Advisor (RSA), and PCSSO.” However, we found that many
Volunteers had not received EAP updates since PST and in-service training (IST). For several
interviewed Volunteers in ID4, their EAPs were dated October 2010 and were missing updated
contact information for staff and ID5 Volunteers. The special agent in the U.S. Consulate’s
security office also had an outdated EAP file from July 2010. The EAP in the emergency action
officer bag was dated May 2011 and was up-to-date.

Although the staff has reviewed and updated the EAP annually as required, the post has not
developed a process to distribute critical updates to staff members and Volunteers. As a result,
staff members and Volunteers, including Volunteer wardens who might be called upon to assist
with an EAP activation, might not have access to critical information needed in an emergency,
such as staff and Volunteer contact information and consolidation point information.


               We recommend:

                  7. That the country director ensure that the post develops
                     a process to provide critical Emergency Action Plan
                     updates to Volunteers, staff, security staff at the U.S.
                     Embassy and Consulate, and the emergency action
                     officer bag.


The post has not tested the EAP using alternate communications.

MS 270.8.2, “Emergency Action Plan Training and Testing”, directs each post to conduct regular
EAP tests that “conform to the standards and protocols established by the agency.” The Standard
Operating Procedure: EAP Testing and Training provides further guidance when it states, “The
SSC will ensure that testing measures both primary and alternative methods of communication
so that the EAP addresses varying circumstances and conditions.” The post conducted a cell
phone communication test in December 2011, but there were no records of a test that involved
both primary and alternative methods of communication. The regional PCSSO recommended
that the post conduct an EAP test using various methods. This kind of EAP test had not been
completed at the time of the evaluation. This test should be completed so the post can determine
if it is able to contact Volunteers when cell phone service is not available, a possibility in an
emergency.




Final Program Evaluation Report: Peace Corps/Indonesia                                         11
               We recommend:

                   8. That the country director ensure that the post conducts
                      an emergency action plan test using primary and
                      alternative methods of communication.


PROGRAMMING

The evaluation assessed to what extent the post has developed and implemented programs
intended to increase the capacity of host country communities to meet their own technical needs.
To determine this, we analyzed the following:

       the coordination between the Peace Corps and the host country in determining
       development priorities and Peace Corps program areas;
       whether post is meeting its project objectives;
       counterpart selection and quality of counterpart relationships with Volunteers;
       site development policies and practices.

We determined through our evaluation that the post has built a strong programming foundation.
In reviewing the project objectives, site development, coordination with host country project
partners, site selection strategy, geographic expansion, and counterpart selection, OIG found no
significant areas of concern that would necessitate action by the post.

Project objectives. At the time of the evaluation fieldwork, the post was working with
headquarters to finalize a project plan. The proposed project plan included three goals: two
related to teaching and teacher capacity building and a third goal related to youth and community
development activities Volunteers could undertake outside of the classroom. The majority of the
project plan was complete, but staff was still trying to incorporate newly-released guidance
provided as part of the agency’s FITU initiative. The status of the project plan was not hindering
Volunteers; 95 percent (18 of 19) of interviewed Volunteers rated their ability to achieve their
project objectives “moderately well” or better.

Site development. The post has developed thorough, well-documented site development criteria
that include programmatic, host family, and housing elements. As a result, 89 percent (17 of 19)
of interviewed Volunteers were satisfied with their site placement. Furthermore, most Volunteers
reported that they benefitted from their host family placements. Interviewed Volunteers reported
that their host families provided integration assistance and furthered their language skills, and 94
percent (17 of 18) of them rated their current housing and host family situation as average or
better.

Coordination with host country project partners. The hurried reentry created friction with
some project partners because there was insufficient time to follow the appropriate processes and
make decisions. Since then, staff has worked to develop a collaborative relationship between the
post and Indonesian project partners. Staff members have good relationships and are in frequent
communication with members of the government of Indonesia's Steering Committee, a group of


Final Program Evaluation Report: Peace Corps/Indonesia                                           12
national-level partners representing the National Development Planning Agency, the Ministry of
National Education, the Ministry of Religious Affairs, and others. The post’s project partners
work with the post in identifying potential Volunteer sites, determining the program’s site
selection strategy, and approving the post’s plans for geographic expansion.

Site selection strategy. In response to the Steering Committee’s request, the post has developed
a site selection strategy that is designed to encourage sustainability, although it is time- and
resource-intensive. After a Volunteer ends their 27 months of service, the post does not replace
them with another Volunteer. This approach is supported by the government of Indonesia
because it encourages sustainability by compelling local teaching staff to assume the Volunteers’
responsibilities. However, this requires staff to develop a larger number of sites for new
Volunteers because they cannot simply reuse sites. This requires more time and resources than
other site selection strategies and should be considered when deciding to grow the program.

Geographic expansion. At the time of the evaluation fieldwork, the post was making
preparations to expand to new geographic locations. Although the post wanted to expand to less-
developed areas of Indonesia, the Steering Committee approved an expansion to West Java. In
preparation, the RMO and PCSSO traveled to West Java to assess its suitability for Volunteer
placements. Neither raised concerns; therefore, the post will move forward with this expansion
by placing three third-year extension Volunteers in West Java by July 2012, followed by 20 two-
year Volunteers in 2013. Even though the post’s geographic expansion has been limited by its
project partners, the evaluation concluded that it is being undertaken carefully and there is
potential to expand to less-developed areas of the country in the future.

Counterpart selection. In general, Volunteers were placed in schools where they could build
productive counterpart relationships. Volunteers’ schools had multiple English teachers they
could work with, which provided them some freedom in finding counterparts who were
supportive of their work. As a result, all of the interviewed Volunteers had at least one
counterpart they worked with on a regular basis, and most Volunteers reported that their
counterparts were supportive.

While the post has many strong programming elements in place, the evaluation did uncover a
few areas that require management attention, particularly related to the project plan and
including site history files in site development. The remainder of this section provides more
information about these topics.

The post’s documented site development process does not incorporate site history files.

MS 270 “Volunteer/Trainee Safety and Security” instructs all posts to “maintain a system for
recording the history of a site”, including “security issues that could affect future Volunteer
placements in particular areas.” The Peace Corps Programming and Training Guidance:
Management and Implementation recognizes the value of site history information and further
instructs all posts to rely on site history files during site development so staff can fully
understand the site’s suitability. It also instructs posts to “have a site history document which
describes the system for documenting site history information by listing all of the site history
information available and where it can be found.”



Final Program Evaluation Report: Peace Corps/Indonesia                                              13
The post maintains detailed site history files that contain information on past Volunteer sites as
well as sites that were considered but not selected for Volunteer placement. However, the post’s
site development process documentation does not include site history files or instruct staff to
refer to these files when selecting sites. As the post matures and collects site history information
it will be important for staff to rely on it when making site placement decisions. The post’s site
development documentation should be updated to ensure important site history information is not
overlooked, possibly leading to an inappropriate Volunteer placement.


               We recommend:

                   9. That the director of programming and training update
                      the site development process documentation to reflect
                      the proper use of site history information.


TRAINING

Another objective of the post evaluation is to answer the question, “Does training prepare
Volunteers for Peace Corps service?” To answer this question we considered such factors as:

       training adequacy;
       planning and development of the training life cycle;
       staffing and related budget.

The evaluation concluded that the training program in Indonesia is generally effective at helping
Volunteers prepare for service and be productive at their sites. Even though there are areas for
improvement, the post has a solid foundation to build upon, especially as it incorporates and
benefits from the agency’s FITU efforts.

Overall, we found that Volunteers were satisfied with the primary language (Bahasa Indonesia),
culture, safety and security, and medical/health portions of PST; IST; midservice training (MST);
and the sustainability conference, which will be described in more detail later in the report. The
post made training improvements since the first PST for ID4 trainees, which positively impacted
Volunteers’ perceptions of training effectiveness. The staff also conducted needs assessments to
determine the content of IST and MST, enabling them to develop more useful training sessions.
The following tables summarize Volunteers’ perceptions on the effectiveness of their training.
The first table shows the combined ratings for both ID4 and ID5 Volunteers. The second table is
useful in seeing how perceptions of training effectiveness vary between ID4 and ID5. This
reflects the post’s efforts to change training to better meet Volunteers’ needs. The most notable
improvements were seen in primary language and technical training.




Final Program Evaluation Report: Peace Corps/Indonesia                                           14
                   Table 2: Volunteer Perceptions of Training Effectiveness
                             Area                 Percent of Volunteers            Average
                                                  Who Rated Training               Rating
                                                       Favorably
                 PST:
                   Primary language
                                                              74%                    3.5
                   (Bahasa Indonesia)a
                   Secondary local
                                                              20%                    1.7
                   languageb,e
                   Culturec                                   94%                    3.3
                   Safety and securitya                       100%                   3.9
                   Medical/healtha                            100%                   3.6
                   Technicala                                 32%                    2.2
                 ISTa                                         89%                    3.7
                 MSTd                                         100%                   3.1
                 Sustainability conferenced                   88%                    3.1
                Source: OIG interviews.
                a
                  N = 19, bN = 15, cN = 17, dN = 8 (due to the timing of the evaluation, ID5 Volunteers had not
                yet participated in MST and the sustainability conference)
                e
                  Javanese or Madurese

         Table 3: Volunteer Perceptions of Training Effectiveness by Input Group
                     Area               Percent of Volunteers              Average Rating
                                        Who Rated Training
                                             Favorably
                                          ID4          ID5a                 ID4              ID5
             PST:
               Primary language
               (Bahasa                    50%b               91%             2.5             3.5
               Indonesia)
               Secondary local
                                           N/Ae              18%            N/A              1.7
               languaged
               Culture                    83%c               100%            3.5             3.3
               Safety and
                                          100%b              100%            3.8             3.9
               security
               Medical/health             100%b              91%             3.9             3.6
               Technical                   0%b               55%             1.8             2.5
             IST                          100%b              82%             3.8             3.7
            Source: OIG interviews.
            a
              N = 11, bN = 8, cN = 6
            d
              Javanese or Madurese
            e
              Fewer than five Volunteers provided a rating

We also reviewed the post’s process for planning and developing training and the sufficiency of
the post’s training resources and found no significant areas of concern that would necessitate
action by the post. The post has cross-unit representation when planning and delivering
Volunteer training. Staff reported that there are sufficient training resources, due in part to the
post’s relationship with a local university and language training provider. These training partners
help manage PST and also provide cultural and language facilitators.


Final Program Evaluation Report: Peace Corps/Indonesia                                                            15
Although training is generally effective, the evaluation did uncover a few areas that require
management attention, particularly related to technical training, secondary local language
training, and trainee assessments. The remainder of this section provides more information about
these topics. It also highlights the post’s sustainability conference, a unique practice that we
believe could be beneficial to other posts.

Although improvements have been made, technical training remains an area of weakness.

MS 201 “Eligibility and Standards for Peace Corps Volunteer Service” states that a trainee must
demonstrate technical competence, which is defined as “proficiency in the technical skills
needed to carry out the assignment” by the end of training. Overall, only 32 percent (six of 19) of
interviewed Volunteers stated that PST technical training was adequate or better. This is
consistent with data from the agency’s 2011 annual Volunteer survey in which Volunteers in
PC/Indonesia rated technical training lower than the global average.

It is important to note that the post made significant improvements to technical training between
ID4 and ID5 PST. This is reflected in the higher ratings provided by ID5 Volunteers shown in
the table below.

            Table 4: Responses on Perception of Technical Training Effectiveness
                 Volunteer Group             Percent of Volunteers             Average Rating
                                               Rating “Average                for Effectiveness
                                            Effectiveness” or Better
                ID4                                    0%                             1.8
                ID5                                   55%                             2.5

Despite the positive trend, ID5 Volunteers still noted areas for improvement; particularly the
need for clearer, better-organized sessions and more classroom experience. Comments from ID5
Volunteers reflect their concerns and suggested improvements:

       “I had no experience as a TEFL teacher before. I didn't know what I was getting myself into. I felt
       we could have cultivated more specific skills instead of theories and general ideas.”

       “I felt like they were trying to make the sessions so engaging that it ended up being a lot of group
       work. We didn't get the full messages of what they were trying to teach. I didn't see the objectives
       or learn the main points.”

       “There was a lot of theory and paper. Wasted paper. There should have been more…classroom
       experience. The theory didn't apply at all.”

Staff was aware that PST technical training required improvements and was using the agency’s
new global TEFL curriculum from FITU during its ID6 PST, which was in progress during
fieldwork.




Final Program Evaluation Report: Peace Corps/Indonesia                                                        16
                 We recommend:

                     10. That the director of programming and training monitor
                         the effectiveness of technical training and make
                         improvements before the next PST, if needed.


Secondary language training was generally viewed as ineffective.

Indonesia’s Volunteer assignment description explains that trainees might be “expected to learn a
secondary local language (for example, Javanese or Madurese) to assist in your community
integration.” Understanding the local language can help Volunteers “demonstrate a clear
understanding and respect for the culture.”

The post’s PST language training was primarily focused on Bahasa Indonesia, although the post
also provided almost 19 hours of training in secondary local languages, such as Javanese or
Madurese, for ID5 trainees.9 Unlike Bahasa Indonesia training, secondary language training was
generally considered to be ineffective by interviewed Volunteers. Only 18 percent (two of 11) of
interviewed ID5 Volunteers rated the effectiveness of the local language training favorably (1.7
average).10

Fortunately, this did not hinder most Volunteers from carrying out their primary assignment or
communicating with their host family. Bahasa Indonesia is the official language spoken in
schools, and only two interviewed Volunteers reported being placed in a host family where no
one spoke Bahasa Indonesia. Some of the interviewed Volunteers noted that improved secondary
language skills could help when conversing with members of their host family and community,
particularly elderly people and small children. But Volunteers had varying opinions on how
much, if any, PST training time should have been spent on secondary language training. Even
Volunteers who recognized the value of understanding the secondary language stated that they
were unable to absorb much of the secondary language instruction provided, and some would
have preferred to spend the time learning other topics. Comments from Volunteers reflect the
varying opinions they held on the effectiveness and need for PST secondary language training:
        “The problem I had with it was that we only do our secondary languages for a week. That’s not
        enough time to learn anything useful. Sometimes the students will speak the local language
        because they know we can't understand. The time would be better spent elsewhere.”

        “I don't understand what's going on around me when they speak in Javanese but it's not
        necessary.”

        “Those 10 weeks are so jam packed and you're focused on Bahasa Indonesia. You're not in your
        community and you don't know how much you'll need it so there wasn't much motivation. People
        spoke enough Bahasa Indonesia for me.”




9
 The PST calendar for ID5 Volunteers included almost 100 hours of language training in Bahasa Indonesia.
10
  Data for ID4 Volunteers is not included because they received a minimal amount of local language training and
most of them chose not to provide a rating.


Final Program Evaluation Report: Peace Corps/Indonesia                                                            17
       “It's hard to say if I should have had more. The general feeling is that it's useless but it does
       prevent me from being involved in conversations at school and home. I zone out instead of trying
       to learn it.”

Posts often struggle to cover all the necessary topics during PST, and ineffective secondary
language training sessions can take time away from other training topics that would be more
beneficial.


               We recommend:

                    11. That the director of programming and training assess
                        the quality and amount of local language training
                        needed during PST and make changes to the PST
                        training content and schedule, if needed.


The post’s trainee assessment tool lacks data from multiple assessment sources.

The Peace Corps Programming and Training Guidance: Training Design and Evaluation
encourages posts to assess and evaluate training to determine whether trainees and Volunteers
have gained the skills and knowledge they need to succeed in their Volunteer assignments.
Training assessments also inform the staff of the effectiveness of the training, which can be used
to make training improvements. The guidance lists multiple pieces of information that can be
used in the assessment, including data from learning assessments, feedback from trainees, and
trainer observations.

The post recently hired a training and evaluation assistant who has been developing a trainee
assessment tool. The tool captures trainees’ self-assessments on a variety of PST topics and
makes it possible to identify areas where trainees are not gaining needed knowledge and skills.
The tool also helps staff identify trainers who might not be as effective as others. The tool was
still in development at the time of the evaluation but showed great potential in becoming a useful
assessment tool. However, the tool only incorporated trainee self-assessments, which is only one
piece of relevant data. The tool did not include trainers’ assessments of trainees or language
proficiency test scores. The post should take advantage of the full range of available data
sources, which will improve the quality and usefulness of its training evaluations.


               We recommend:

                    12. That the director of programming and training ensure
                        that the trainee assessment tool includes data from all
                        trainee assessment sources.




Final Program Evaluation Report: Peace Corps/Indonesia                                                     18
The sustainability conference is a promising practice.

According to Characteristics and Strategies of a High Performing Post, “Sustainable
development and collaboration with host country partners” are “at the very heart of the Peace
Corps.” As already reported in the “Programming” section of this report, the post’s national-level
host country partners are engaged in the Peace Corps’ mission and work and have taken action to
measure Volunteer impact and emphasize sustainability. Staff reported that national-level project
partners were pleased with Volunteers’ activities but were concerned that schools were not
prepared for Volunteer departures and needed to focus on exit strategies. At the request of their
Indonesian project partners, the post conducted a sustainability conference in March 2012 for
ID4 Volunteers who were nearing the end of their service. This conference brought together
Volunteers, principals, teachers, students, and officials from the district, provincial and national
level partners. The focus of the conference was “sustaining Volunteer activities” and, according
to a report produced by the post, “the goals of the workshop were:

       to reflect on the impact of hosting a Peace Corps Volunteer on a school community
       to identify methods for sustaining positive change after the Volunteer has departed
       to celebrate and appreciate the work accomplished together over the last two years”

Although they noted some areas for improvement, staff, Volunteers, and project partners were
generally pleased with the conference. The conference encouraged discussions about successes
and how to sustain the positive change that occurred because of the Volunteer. It also produced
other ideas to promote sustainability, including a network of teachers who served as Volunteer
counterparts who can continue to communicate and meet to build upon the work of the
Volunteers.

Not only was the conference itself generally considered a success, but the fact that the
Indonesian partners took the initiative to suggest and co-host the conference shows a high level
of commitment and engagement. It is our belief that the sustainability conference was a positive
event that the post should continue. Other posts may also want to consider hosting a similar
event to encourage sustainability and deepen the relationships with project partners.




Final Program Evaluation Report: Peace Corps/Indonesia                                           19
                OBJECTIVE, SCOPE, AND METHODOLOGY
The purpose of OIG is to prevent and detect fraud, waste, abuse, and mismanagement and to
promote economy, effectiveness, and efficiency in government. In February 1989, the Peace
Corps OIG was established under the Inspector General Act of 1978 and is an independent entity
within the Peace Corps. The Inspector General is under the general supervision of the Peace
Corps Director and reports both to the Director and Congress.

The Evaluation Unit within the Peace Corps OIG provides senior management with independent
evaluations of all management and operations of the Peace Corps, including overseas posts and
domestic offices. OIG evaluators identify best practices and recommend program improvements
to comply with Peace Corps policies.

OIG Evaluation Unit announced its intent to conduct an evaluation of PC/Indonesia on January
24, 2012. For post evaluations, we use the following researchable questions to guide our work:

       To what extent has post developed and implemented programs to increase host country
       communities’ capacity?
       Does training prepare Volunteers for Peace Corps service?
       Has the post provided adequate support and oversight to Volunteers?
       Are post resources and agency support effectively aligned with the post’s mission and
       agency priorities?

The evaluator conducted the preliminary research portion of the evaluation January 25–April 11,
2012. This research included a review of agency documents provided by headquarters and post
staff; interviews with staff representing the EMA region, the office of Overseas Programming
and Training Support (OPATS), the Office of Safety and Security (SS), and VRS; and inquiries
to the Office of Volunteer Support, Office of Intergovernmental Affairs and Partnerships, and the
Office of Private Sector Initiatives.

In-country fieldwork occurred from April 16–May 4, 2012, and included interviews with senior
post staff in charge of programming, training, and support; the U.S. Deputy Chief of Mission; the
Consular General; the embassy regional security officer; the consular special agent; and host
country government ministry officials. In addition, we interviewed a stratified judgmental
sample of 19 Volunteers (49 percent of Volunteers serving at the time of our visit) who were
chosen based on their length of service, site location, project focus, gender, age, and ethnicity.

This evaluation was conducted in accordance with the Quality Standards for Inspections issued
by the Council of the Inspectors General on Integrity and Efficiency (formerly the President’s
Council on Integrity and Efficiency). The evidence, findings, and recommendations provided in
this report have been reviewed by agency stakeholders affected by this review.




Final Program Evaluation Report: Peace Corps/Indonesia                                         20
                                  INTERVIEWS CONDUCTED
As part of this post evaluation, interviews were conducted with 19 Volunteers; 11 staff members
in-country; and 20 representatives from Peace Corps headquarters in Washington D.C., the U.S.
Embassy in Indonesia, the U.S. Consulate in Surabaya, Indonesia, and key ministry officials.
Volunteer interviews were conducted using a standardized interview questionnaire, and
Volunteers were asked to rate many items on a five-point scale (1 = not effective, 3 = average, 5
= very effective). The analysis of these ratings provided a quantitative supplement to Volunteers’
comments, which were also analyzed. For the purposes of the data analysis, Volunteer ratings of
“3” and above are considered favorable. In addition, 15 out of 19 Volunteer interviews occurred
at the Volunteers’ homes, and we inspected these homes using post-defined site selection
criteria. The period of review for a post evaluation is one full Volunteer cycle (typically 27
months).

The following table provides demographic information that represents the entire Volunteer
population in Indonesia at the time fieldwork was conducted. The Volunteer sample was selected
to reflect these demographics.

                                 Table 5: Volunteer Demographic Data
                                                                       Percentage of
                                   Project
                                                                        Volunteers
              English Teaching and Teacher Training                        100%
                                                                       Percentage of
                                   Gender
                                                                        Volunteers
              Female                                                        59%
              Male                                                          41%
                                                                       Percentage of
                                     Age
                                                                        Volunteers
              25 or younger                                                 49%
              26-29                                                         44%
              30-49                                                          3%
              50 and over                                                    5%
             Source: PC/Indonesia Volunteer roster.
             Note: Percentages may not total 100% due to rounding.

At the time of our field visit, PC/Indonesia had 23 staff positions, and we interviewed 11 of these
staff members.11




11
  A full-time partner relations coordinator began employment after fieldwork ended and is therefore not reflected in
Table 6.


Final Program Evaluation Report: Peace Corps/Indonesia                                                           21
               Table 6: Interviews Conducted with PC/Indonesia Staff Members
                              Position                        Status    Interviewed
      Country Director                                                     USDH                      X
      Director of Programming and Training                                 USDH                      X
      Program Manager                                                      PSC*                      X
      Program Assistant                                                    PSC                       X
      Regional Manager (2)                                                 PSC                       X
      Training Manager                                                     PSC                       X
      Technical Training Coordinator                                       PSC
      Training and Evaluation Assistant                                    PSC
      Safety and Security Coordinator                                      PSC                       X
      Peace Corps Medical Contractor                                       PSC                       X
      Medical Assistant                                                    PSC
      Director of Management and Operations                                USDH                      X
      Finance Associate                                                    FSN*
      Cashier                                                              FSN
      Administrative Assistant                                             PSC
      General Services Manager                                             PSC
      General Services Assistant/Receptionist                              PSC
      General Service Technician/Driver (2)                                PSC
      General Services Assistant/Driver (2)                                PSC
      IT Specialist                                                        PSC                       X
     Data as of April 2012. *PSC is personal services contractor; FSN is foreign service national.

Twenty additional individuals were interviewed during the preliminary research phase of the
evaluation and when conducting follow-up work upon return to Peace Corps headquarters in
Washington, D.C.

            Table 7: Interviews Conducted with PC/Headquarters Staff, Embassy
                      and Consulate Officials and Key Ministry Officials
                             Position                          Organization
         Regional Director                                            PC/Headquarters/EMA region
         Chief of Operations                                          PC/Headquarters/EMA region
         Chief of Programming and Training                            PC/Headquarters/EMA region
         Chief Administrative Officer                                 PC/Headquarters/EMA region
         Country Desk Officer                                         PC/Headquarters/EMA region
         Regional Security Advisor                                    PC/Headquarters/EMA region
         Program and Training Specialist (Education)                  PC/Headquarters/OPATS
         Cross-Cultural and Diversity Training Specialist             PC/Headquarters/OPATS
         Peace Corps Safety and Security Officer                      PC/Headquarters/SS
         Placement Supervisor for Review                              PC/Headquarters/VRS
         Deputy Chief of Mission                                      U.S. Embassy in Indonesia
         Regional Security Officer                                    U.S. Embassy in Indonesia
         Consul General                                               U.S. Consulate in Surabaya,
                                                                      Indonesia
         Special Agent                                                U.S. Consulate in Surabaya,
                                                                      Indonesia



Final Program Evaluation Report: Peace Corps/Indonesia                                                   22
         Directorate for Political Affairs and Communication   National Development
                                                               Planning Agency
         Deputy Director                                       National Development
                                                               Planning Agency
         Head, Subdivision of America and Europe               Indonesia’s Ministry of
                                                               National Education
         Representative of Bureau of Planning and              Indonesia’s Ministry of
         International Cooperation                             National Education
         Head of Supervision & Evaluation Section              Indonesia’s Ministry of
                                                               Religious Affairs
         Director, Directorate of Madrasah Institution         Indonesia’s Ministry of
                                                               Religious Affairs
        Data as of May 2012.




Final Program Evaluation Report: Peace Corps/Indonesia                                   23
                          LIST OF RECOMMENDATIONS
WE RECOMMEND:

1. That the associate director of Global Operations give emphasis to Peace Corps regulations
   and establish a set of standards and realistic timelines for future new country entries and
   reentries. Timelines should be based upon the particular condition, cultural norms, local
   procedures and unique features of the host country and the new Peace Corps program and
   ensure that important activities that impact Volunteer health and safety are completed before
   trainees arrive in country.

2. That the country director review and clarify the duties of the program manager, regional
   managers, and program assistant and adjust statements of work, titles, and pay grades, if
   needed.

3. That the country director hire a second Peace Corps medical officer.

4. That the associate director for safety and security update the agency’s Guidelines for
   Responding to Rape and Sexual Assault to reflect the staff training requirements in the Kate
   Puzey Peace Corps Volunteer Protection Act of 2011.

5. That the country director ensure that all post staff, including temporary, seasonal staff
   members, receive sexual assault response training.

6. That the country director ensure that all Volunteers are familiar with their consolidation
   points.

7. That the country director ensure that the post develops a process to provide critical
   Emergency Action Plan updates to Volunteers, staff, security staff at the U.S. Embassy and
   Consulate, and the emergency action officer bag.

8. That the country director ensure that the post conducts an emergency action plan test using
   primary and alternative methods of communication.

9. That the director of programming and training update the site development process
   documentation to reflect the proper use of site history information.

10. That the director of programming and training monitor the effectiveness of technical training
    and make improvements before the next PST, if needed.

11. That the director of programming and training assess the quality and amount of local
    language training needed during PST and make changes to the PST training content and
    schedule, if needed.




Final Program Evaluation Report: Peace Corps/Indonesia                                           24
12. That the director of programming and training ensure that the trainee assessment tool
    includes data from all trainee assessment sources.




Final Program Evaluation Report: Peace Corps/Indonesia                                      25
APPENDIX A

                                 LIST OF ACRONYMS
 CD                       Country Director
 DMO                      Director of Management and Operations
 DPT                      Director of Programming and Training
 EAP                      Emergency Action Plan
 EMA                      Europe, Mediterranean and Asia region
 FITU                     Focus In/Train Up
 HDI                      Human Development Index
 IST                      In-Service Training
 MS                       Manual Section
 MST                      Midservice Training
 OIG                      Office of Inspector General
 OPATS                    Overseas Programming and Training Support
 PA                       Program Assistant
 PCMO                     Peace Corps Medical Officer
 PCSSO                    Peace Corps Safety and Security Officer
 PM                       Program Manager
 PST                      Pre-Service Training
 RM                       Regional Manager
 RMO                      Regional Medical Officer
 RSA                      Regional Security Advisor
 SLF                      Site Locator Form
 SOW                      Statement of Work
 SS                       Office of Safety and Security
 SSC                      Safety and Security Coordinator
 TDY                      Temporary Duty
 TEFL                     Teaching English as a Foreign Language
 TG                       Medical Technical Guideline
 USDH                     U.S. Direct Hire
 VRF                      Volunteer Reporting Form
 VRS                      Office of Volunteer Recruitment and Selection




Final Program Evaluation Report: Peace Corps/Indonesia                    26
APPENDIX B

        AGENCY’S RESPONSE TO THE PRELIMINARY REPORT




                                              Since
                                              1961.

  MEMORANDUM

 To:           Kathy Buller, Inspector General

 Through:     Daljit K. Bains, Chief Compliance O f f i c e r

 From:        Helen Lowman, EMA Regional Director
              Ken Puvak, Country Director

 Date:         September 7, 2012

 CC:          Carrie Hessler-Radelet, Deputy Director
              Stacy Rhodes, Chief of Staff
              Joaquin Ferrao, Deputy Inspector General
              Esther Benjamin, Associate Director, Global Operations
              Ed Hobson, Associate Director, Office of Safety and Security
              Jim O'Keefe, Assistant I G - Evaluations
              David Burgess, Chief of Operations, EMA

 Subject:     Agency Response to the July 2012 Preliminary Program Evaluation Report of
              Peace Corps/Indonesia


Enclosed please find the agency's response to the recommendations made by the Inspector
General for Peace Corps/Indonesia, as outlined in the Preliminary Program Evaluation Report
dated July 2012.

The Region concurs with the ten country-specific recommendations (#2-3 and #5-12) provided
by the OIG in the report. The offices responsible for the recommendations belonging to other
departments, Office of Global Operations and Safety and Security, also concur with the two
recommendations for which they are responsible.




Final Program Evaluation Report: Peace Corps/Indonesia                                         27
APPENDIX B
Post has addressed and is providing documentation to close recommendation number #9 and will
provide documentation on eight additional recommendations by December 31, 2012. The
remaining two recommendations will be closed by April 30, 2013.

Recommendation 1:
That the associate director of Global Operations give emphasis to Peace Corps regulations and
establish a set of standards and realistic timelines for future new country entries and reentries.
Timelines should be based upon the particular condition, cultural norms, local procedures and
unique features of the host country and the new Peace Corps program and ensure that
important activities that impact Volunteer health and safety are completed before trainees
arrive in country.

Concur:
The associate director of Global Operations will review the timelines currently in the New Entry
Guide and revise them as necessary. The associate director will also establish a set of standards for
future new country entries and reentries making sure that the standards indicate that Volunteer health
and safety activities are completed before trainees arrive in country.

Documents to be Submitted:
     Revised New Country Entry Guide

Status and Timeline for Completion:
       New Country Entry Guide is currently under revision. This additional revision will be made
       by November 1, 2012

Recommendation 2:

That the country director review and clarify the duties of the program manager, regional
managers, and program assistant and adjust statements of work, titles, and pay grades, if
needed.

Concur:
The Director for Programming and Training (DPT) has met individually with the Program Manager
(PM), the two Regional Managers (RMs), and the Program Assistant (PA) to review and clarify their
respective duties. For contractual reasons, Post will maintain the current statements of work, titles,
and pay grades through the contract periods of each staff member and will make appropriate changes
as individual contracts expire or come up for renewal. Documents evidencing changes to SOWs,
titles or pay grades will be submitted to the OIG by April 2013 when all the current contracts will
have ended.

Post is in the process of transitioning to a Regional Manager model and has assigned duties to the
PM consistent with the model and best suited to his abilities. Experience working with Republic of
Indonesia counterparts has demonstrated the critical importance of “socialization” -- outreach to
provincial, district and local officials – as Post opens a new province. Within the scope of his current
statement of work, the PM has been assigned the responsibility for developing these relationships in
West Java, where Post is inaugurating two-year placements in 2013. The PM has likewise been
assigned to develop 20 placements in West Java for the April 2013 training class. The PM has been
tasked with making presentations to officials in various Ministries in Jakarta and prospective


Final Program Evaluation Report: Peace Corps/Indonesia                                               28
APPENDIX B
provinces to raise the profile of the program and to increase awareness. At the end of the PM’s
current contract period (March 2013), the CD and DPT will review the PM’s duties and make
changes accordingly.

Similar to other posts with a Regional Manager model, PC/Indonesia has assigned volunteer support
responsibilities to RMs who have identical SOWs. They each support half of the 63 Volunteers
located in East Java and have primary responsibility for site visits, communication with host families,
supervisors and counterparts, and providing guidance and feedback to volunteers on performance
issues. The RMs will share site development and site matching responsibilities for the approximate
40 Volunteer placements in East Java for the April 2013 training class. At the end of their respective
contract periods, the CD and DPT will review the RMs’ statements of work and make changes
accordingly.

The Program Assistant provides administrative support for and participation in site development
visits. The transition of the regional manager model has allowed Post to clearly delineate the duties
of a PA from those of the RMs and the PM. For example, the PA does not serve as Emergency
Action Officer and no longer routinely handles issues involving counterparts, supervisors or host
families. Unlike the RMs who have Volunteer supervisory responsibility, the PA handles more
administrative tasks such as tracking leave days, updating information in VIDA, and providing
information and referrals for technical resources. At the end of the PA’s current contract period
(September 2012), the CD and DPT will review the PA’s statement of work and make changes
accordingly.

Documents to be Submitted:
     Revised statements of work for the PM, RM and PA positions
     Title, pay grades, step increase changes, if needed

Status and Timeline for Completion:
April 2013

Recommendation 3:

That the country director hire a second Peace Corps medical officer.

Concur:
In light of the planned expansion to a program of over 90 Volunteers by June 2012, post fully agrees
that a second PCMO position is warranted and should be filled as soon as possible.

With the support of the EMA Region and OMS, Peace Corps/Indonesia anticipates having a new
PCMO on board no later than the first quarter of FY 2013, following the OMS review of
qualifications, completion of the in-country security certification process, and other required steps in
the hiring process.


Documents to be Submitted:
     Copy of PCMC contract

Status and Timeline for Completion:


Final Program Evaluation Report: Peace Corps/Indonesia                                                29
APPENDIX B
December 31, 2012


Recommendation 4:
That the associate director for safety and security update the agency’s Guidelines for
Responding to Rape and Sexual Assault to reflect the staff training requirements in the Kate
Puzey Peace Corps Volunteer Protection Act of 2011.

Concur:
The Agency is working to update the Guidelines for Responding to Rape and Sexual Assault as part
of the response to the OIG’s Evaluation of the Implementation of the Guidelines for Responding to
Rape and Sexual Assault. These updates will also address this Indonesia recommendation. The Kate
Puzey Volunteer Protection Act requires that the Agency train on the Sexual Assault Policy, and does
not specifically mention the Guidelines for Responding to Rape and Sexual Assault; however
revisions to the Guidelines will include procedures for training appropriate staff.

Documents to be Submitted:
     Revised Guidelines for Responding to Rape and Sexual Assault

Status and Timeline for Completion:
March 2013


Recommendation 5:

That the country director ensure that all post staff, including temporary, seasonal staff
members, receive sexual assault response training.

Concur:

On August 30, 2012, all Peace Corps Indonesia staff will participate in sexual assault response
training. Post will incorporate the training as part of new staff orientation for all incoming staff
members.

In addition, to assure that all temporary, seasonal staff members are trained, Post will include sexual
assault response training as a mandatory part of its Training of Trainers (ToT) for Pre-Service
Training staff who will start in April 2013.

Documents to be Submitted:
     August PCSSO Training Session schedule and participant list
     New staff member orientation schedule
     March 2013 ToT draft schedule

Status and Timeline for Completion:
April 2013

Recommendation 6:



Final Program Evaluation Report: Peace Corps/Indonesia                                                 30
APPENDIX B
That the country director ensure that all Volunteers are familiar with their consolidation
points.

Concur:
Volunteers must know and understand the Post Emergency Action Plan (EAP), consolidation points,
and the warden system. During the final week of the 2012 (PST), PC/Indonesia introduced a new
training session activity to familiarize trainees with their assigned consolidation points and wardens.
The Post will also include an EAP refresher session at its next in-service training in October 2012
and make such refreshers a regular part of In-Service and Mid-Service Trainings. PC/Indonesia will
further strengthen future EAP trainings by including table-top exercises and scenarios.

Post will conduct a consolidation drill no later than September 30, 2012. At that time, Peace Corps
staff members will distribute laminated wallet cards which will include consolidation points and
warden contact information, along with a brief instruction such as “When consolidation is activated,
respond by calling or texting immediately. Confirm your safe arrival at the consolidation point with
the warden or Emergency Action Officer as instructed.” On the opposite side of the card, Post will
print phone numbers of the Emergency Action Officer, SSC, PCMO, and other key staff.

Documents to be Submitted:
     June 2012 PST schedule
     October 2012 IST schedule
     EAP session plans
     Copy of wallet card

Status and Timeline for Completion:
December 31, 2012


Recommendation 7:

That the country director ensure that the post develops a process to provide critical Emergency
Action Plan updates to Volunteers, staff, security staff at the U.S. Embassy and Consulate, and
the emergency action officer bag.

Concur:
Post recognizes the importance of maintaining a strong relationship and communications with the
Regional Security Officers (RSOs) at the Embassy in Jakarta and the Consulate in Surabaya. Since
July 2012, the CD has met with the Jakarta RSO and Deputy RSO twice and the new Surabaya RSO
once to share the relevant findings and recommendations of the preliminary OIG report and to
discuss remedial actions.

Post is developing standard operating procedures to assure that critical EAP updates are provided to
Volunteers, staff, and the security staff at the U.S. Embassy and Consulate, and are included in the
emergency action officer bag.
As part of the SOP, the PC/Indonesia Safety and Security Coordinator will provide quarterly updates
of volunteer contact and site information including individual consolidation points to all parties
mentioned. The deadlines for the quarterly update will be January 15, April 15, July 15 and October
15 of each year. The first update will be sent October 15, 2012.


Final Program Evaluation Report: Peace Corps/Indonesia                                               31
APPENDIX B

Post will maintain an electronic copy of the quarterly updates and will request acknowledgements of
receipt of these updates from the Embassy and Consulate security staff members.

Documents to be Submitted:
     Standard Operating Procedure for EAP Preparedness
     October 2012 EAP quarterly update
     Acknowledgement of receipt from Embassy and Consulate security staff members

Status and Timeline for Completion:
December 31, 2012


Recommendation 8:
That the country director ensure that the post conducts an emergency action plan test using
primary and alternative methods of communication.

Concur:
Post will conduct a consolidation drill no later than September 30, 2012. The drill will use both
primary and alternate communication methods. Post will assure that at least 50% of PCVs are
contacted via alternate methods of communication.

Documents to be Submitted:
     September 2012 EAP Consolidation Drill Report

Status and Timeline for Completion:
December 31, 2012


Recommendation 9:
That the director of programming and training update the site development process
documentation to reflect the proper use of site history information.


Concur:
The DPT has revised the site development standard operating procedures (SOPs) to assure that site
history is properly documented and thoroughly considered during the site development process. In
accordance with the SOP and MS-270, the programming staff and SSC are responsible for reviewing
all prospective sites provided by provincial counterparts for any “Volunteer concerns about a
location, safety or security incidents that occur in the community, and other conditions that could
otherwise affect a future decision to place a Volunteer in that location.”

Documents Submitted:
     Standard Operating Procedures for Site Development

Status and Timeline for Completion:
September 2012




Final Program Evaluation Report: Peace Corps/Indonesia                                              32
APPENDIX B

Recommendation 10:
That the director of programming and training monitor the effectiveness of technical training
and make improvements before the next PST, if needed.

Concur:
Post agrees that technical training was the weakest element of its PST program in Years one and two.
To address this weakness, post engaged an experienced technical coordinator from another post,
hired two new training staff members, and began implementation of the new TEFL Core Curriculum.

As a result of hiring a Technical Training Coordinator and Training Evaluation Assistant, Post
expects improved planning, implementation, monitoring and evaluation of its technical training.
These new staff members will be on board for the entirety of preparations for the 2013 PST. They
will be heavily involved in site visits in October and November 2012 to assess Volunteer technical
training needs and to work with programming staff to incorporate related learning objectives into the
Training, Design, and Evaluation (TDE) process.

The DPT will continue to monitor the effectiveness of technical training during PST and throughout
service. During PST, the DPT relies on trainee feedback as well as staff observation of trainee
performance and practice to adjust the training design. Post also solicits feedback from Volunteers
through the Annual Volunteer Survey, post-PST surveys, informal feedback, and interviews with
Volunteers and counterparts regarding PCVs’ performance of their technical duties. Post will
continuously strive to improve its TEFL technical training based upon these sources of information.

Documents to be Submitted:
     2012 Post-PST Volunteer Evaluations, if needed

Status and Timeline for Completion:
December 31, 2012


Recommendation 11:
That the director of programming and training assess the quality and amount of local language
training needed during PST and make changes to the PST training content and schedule, if
needed.

Concur:
Post believes that including local as well as national language as part of pre-service training can have
a highly positive effect on Volunteers’ ability to integrate into their host communities. Host
communities deeply appreciate a level of language acquisition that includes greetings and basic
conversational ability in the local language. However, it is more useful for some Trainees to
continue to study Bahasa Indonesia rather than moving to the local language of their host
communities.

The DPT will work with the programming team to determine the dominant language(s) at
prospective sites and modify site development surveys in order to document that information for use
by the training team. Through the TDE process, this information will be used to set specific
objectives for local language training.



Final Program Evaluation Report: Peace Corps/Indonesia                                               33
APPENDIX B

Further, the DPT and training team will assess the quality and effectiveness of the current allotment
and scheduling of approximately 20 hours to the languages of Bahasa Java, Bahasa Madura, and
Bahasa Sunda against the set PST objectives. Post will also look into options to support local
language training during service.


Documents to be Submitted:
     2012 Post-PST Volunteer Evaluations
     Revised Site Development Survey Form, if needed
     2012 Training Design and Evaluation Report

Status and Timeline for Completion:
December 31, 2012


Recommendation 12:
That the director of programming and training ensure that the trainee assessment tool includes
data from all trainee assessment sources.

Concur:
Post concurs with the finding that the trainee assessment tool being developed by its training and
evaluation assistant shows “great potential” and agrees that the trainer assessment should be
systematically included in its weekly PST data collection. The training team will develop a SOP for
trainee assessment and feedback.

During the 2012 PST, the trainee assessment tool collected trainee self-assessment data but was
designed to include trainer assessment information as well. In 2013, the tool will also include trainer
assessment of trainees and language proficiency scores.

Documents to be Submitted:
     Peace Corps Indonesia trainee assessment tool
     Sample Recommendation for Swear-In Letter
     Trainee Assessment and Feedback SOP

Status and Timeline for Completion:
December 31, 2012




Final Program Evaluation Report: Peace Corps/Indonesia                                               34
APPENDIX C

                                   OIG COMMENTS
Management concurred with all 12 recommendations. Based on the documentation provided, we
closed one recommendation: number nine. In its response, management described actions it is
taking or intends to take to address the issues that prompted each of our recommendations. We
wish to note that in closing recommendations, we are not certifying that the agency has taken
these actions or that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities. However, when we feel it is warranted, we may
conduct a follow-up review to confirm that action has been taken and to evaluate the impact.

Eleven recommendations, number(s) 1-8 and 10-12, remain open. OIG will review and consider
closing these recommendations when the documentation reflected in the agency’s response to the
preliminary report is received.




Final Program Evaluation Report: Peace Corps/Indonesia                                      35
APPENDIX D

               PROGRAM EVALUATION COMPLETION AND
                         OIG CONTACT

PROGRAM                        This program evaluation was conducted under the
EVALUATION                     direction of Jim O’Keefe, Assistant Inspector General for
                               Evaluations, by Lead Evaluator Heather Robinson.
COMPLETION                     Additional contributions were made by Senior Evaluator
                               Jerry Black.




                               Jim O’Keefe
                               Assistant Inspector General for Evaluations




OIG CONTACT                    Following issuance of the final report, a stakeholder
                               satisfaction survey will be distributed. If you wish to
                               comment on the quality or usefulness of this report to help
                               us improve our products, please e-mail Jim O’Keefe,
                               Assistant Inspector General for Evaluations, at
                               jokeefe@peacecorps.gov, or call (202) 692-2904.




Final Program Evaluation Report: Peace Corps/Indonesia                                       36
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                          Contact OIG


                                   Hotline:
          U.S./International:       202.692.2915
          Toll-Free (U.S. only):    800.233.5874

          Email:                    OIG@peacecorps.gov
          Web Form:

          Mail:                     Peace Corps Office of Inspector General
                                    P.O. Box 57129
                                    Washington, D.C. 20037-7129


                           Other Inquiries:
          Main Office:              202.692.2900
